GR-70-98-015
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the
McKeesport, Pennsylvania Police Department
GR-70-98-015
 
August 28, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services
(COPS), to the McKeesport Police Department (McKeesport). McKeesport was awarded a total
of $973,664 in COPS grants to hire 7 new full-time and 10 new part-time sworn police
officers, and to redeploy 4.6 full-time-equivalent (FTE) sworn police officers to
community policing.
McKeesport violated some grant conditions.


McKeesport did not develop plans to document the redeployment of officer FTEs to
    community policing resulting from its MORE 95 and MORE 96 grants. The MORE redeployment
    condition requires grantees to develop a redeployment plan within 60 days of accepting the
    grant. Until McKeesport develops a redeployment plan for the 3.6 FTEs granted under MORE
    95, we consider the $56,454 received as reimbursement under the grant as questioned costs.
    McKeesport must also develop a redeployment plan for 1 FTE under MORE 96. Until it
    develops such a plan, we consider $7,970 as questioned costs and $37,726 as funds to
    better use.


About 35 percent, or $19,634, of the reimbursement McKeesport received under MORE 95 was
    for expenditures on items not included in the approved grant budget. We would have
    questioned this $19,634 if we had not already questioned the total reimbursement because
    McKeesport did not develop a redeployment plan.


McKeesport spent about $5,300 in federal funds and local matching funds for salary in
    excess of the amount approved in the FAST financial clearance memorandum and received
    $3,973 as reimbursement. As a result, we question the $3,973 McKeesport received as
    reimbursement. 

These items are discussed in the Findings and Recommendations section of the report.
The Scope and Methodology we used to perform the audit, appear in Appendix II.
#####